No. 19-1173
IN THE

Supreme Court of the United States
COMCAST CORPORATION, ET AL.,
Petitioners,
v.
INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5 (as modified by this Court’s Order of April 15, 2020),
and 37.5, that I have, this 27th day of April, 2020, served the Brief of Unified Patents,
LLC and Arista Networks, Inc. as Amici Curiae In Support of Petitioners upon each
party separately represented in this proceeding by causing an electronic copy of the
same to be delivered to counsel of record at the e-mail addresses listed below:
Donald B. Verrilli Jr.
Munger, Tolles & Olson LLP
1155 F Street NW, 7th Floor
Washington, D.C. 20004
Donald.verilli@mto.com
Counsel of Record for the Comcast Petitioners
Paul M. Bartkowski
Adduci Mastriani & Schaumberg LLP
1133 Connecticut Avenue NW
Washington, D.C. 20036
bartkowski@adduci.com

Counsel for the Technicolor Petitioners
Michael J. Turton
Kilpatrick Townsend & Stockton LLP
1100 Peachtree Street NE, Suite 2800
Atlanta, GA 30309
mturton@kilpatricktownsend.com
Counsel for the ARRIS Petitioners
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondent International Trade Commission
Jeffrey Alan Lamken
MoloLamken LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, DC 20037
jlmaken@mololamken.com
Counsel of Record for Respondents Rovi Corporation; Rovi Guides, Inc.
In accordance with the Court’s April 15 Order, I certify that petitioners and
respondents Rovi Corporation and Rovi Guides, Inc. have consented to accepting
electronic service. I also certify that, on this date, I served three copies of the Brief
of Unified Patents, LLC and Arista Networks, Inc. as Amici Curiae In Support of
Petitioners upon respondent International Trade Commission, by causing them to be
deposited with the United States Postal Service, with first-class postage prepaid,
addressed to counsel of record for respondent International Trade Commission listed
above.

I further certify that all persons required to be served have been served.

____________________________
Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000
April 27, 2020

